HHS/OIG, Audit -"Review of Payments Made by United Government Services for Home Health Services Preceded by a Hospital Discharge,"(A-09-03-00042)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Payments Made by United Government Services for Home Health Services
Preceded by a Hospital Discharge," (A-09-03-00042)
February 27, 2004
Complete
Text of Report is available in PDF format (441 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Medicare and Medicaid Services (CMS) provides for a lower payment for home health services
rendered to beneficiaries discharged from an acute care hospital within 14 days immediately preceding admission to home
health care.  Based on a statistically valid sample, we estimated that United Government Services (United) overpaid
home health agencies (HHAs) approximately $5.3 million for fiscal year 2001 claims that did not meet this 14-day requirement.  These
overpayments occurred because HHAs did not provide the necessary or correct information to United, and United had not established
adequate postpayment controls to detect HHA claims that were billed incorrectly.  In addition to financial adjustments,
we recommended that United provide education to HHAs to ensure that beneficiary discharge data are completed accurately
on patient assessment instruments.